               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




           Intelligent Mail Barcode
         Development and Use of Data

                       Audit Report




                                          September 6, 2013

Report Number DP-AR-13-010
                                                                      September 6, 2013

                                             Intelligent Mail Barcode Development and
                                                                           Use of Data

                                                          Report Number DP-AR-13-010



BACKGROUND:
The U.S. Postal Service began                  WHAT THE OIG FOUND:
developing the Intelligent Mail Program        The Postal Service does not have a
in 2003. The key aspect of the program         comprehensive plan for the continued
is the Intelligent Mail® barcode (IMb)         development and use of IMb data.
which the Postal Service began using in        Specifically, it developed the IMb
September 2006. Customers print IMbs           database structure and made decisions
on mailpieces before they enter a Postal       regarding storage capacity, processing
Service facility and, in return, receive       speed, and availability of data without
automation discounts. The Postal               considering the needs of all IMb data
Service can also print IMbs on                 users. Current plans for use of IMb data
mailpieces during processing.                  have grown beyond the original vision,
                                               therefore, data storage capabilities and
The IMb can include information such as        system upgrades were needed to
the delivery address, mailer information,      support stakeholders requirements
and a unique identifier for each               identified after initial development.
mailpiece. Automated sorting machinery
reads the IMb using optical scanning           Further, the Postal Service envisions
and collects data. The Postal Service          developing an information technology
and its customers use IMb data to              infrastructure to scan and track
streamline operations, improve                 individual mailpieces as they travel
efficiency and service performance, or         through its processing network.
enhance customer marketing.                    However, without a comprehensive
                                               plan, the program applications in
The Postal Service continues to identify       development may have limited
and find value from IMb data. It currently     functionality and may not meet all users’
has five projects related to IMb totaling      needs, such as real-time mail tracking.
$314.4 million. The Postal Service also
plans to increase current data storage         WHAT THE OIG RECOMMENDED:
and processing capabilities by five times      We recommended management
to meet the January 2014 requirement           develop a comprehensive IMb data plan
that full service IMb must be used to          utilizing data governance principles for
receive automation discounts.                  the collection, storage, and use of IMb
                                               data. The plan should include input from
Our objective was to determine whether         all business users, an assessment of all
the Postal Service has a comprehensive         costs, and milestones for the life of the
plan to develop and use IMb data.              IMb program.
                                               Link to review the entire report
September 6, 2013

MEMORANDUM FOR:            ELLIS A. BURGOYNE
                           CHIEF INFORMATION OFFICER AND EXECUTIVE VICE
                           PRESIDENT



FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue and Performance

SUBJECT:                   Audit Report – Intelligent Mail Barcode Development and
                           Use of Data (Report Number DP-AR-13-010)

This report presents the results of our audit of Intelligent Mail® Barcode Development
and Use of Data (Project Number 12BG034FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Data Analysis and Performance, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Intelligent Mail Barcode Development and Use of Data                                                               DP-AR-13-010




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Intelligent Mail Barcode Database Development ............................................................. 2

   Intelligent Mail Barcode Database Storage.................................................................. 3

Intelligent Mail Barcode Database Costs......................................................................... 4

Recommendation ............................................................................................................ 5

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Data Governance ........................................................................................................ 8

   Gathering and Accessing Intelligent Mail Barcode Data .............................................. 9

   Implementation of Intelligent Mail .............................................................................. 11

   Objective, Scope, and Methodology .......................................................................... 11

   Prior Audit Coverage ................................................................................................. 13

Appendix B: Significant Dates in Development of the Intelligent Mail Program ............. 17

Appendix C: Systems Generating Intelligent Mail Barcode Data ................................... 20

Appendix D: Systems Utilizing Intelligent Mail Barcode Data ........................................ 22

Appendix E: Intelligent Mail Program and Associated Applications ............................... 25

Appendix F: Management's Comments ........................................................................ 28
Intelligent Mail Barcode Development and Use of Data                                                       DP-AR-13-010




Introduction

This report presents the results of our audit of Intelligent Mail barcode (IMb)
Development and Use of Data (Project Number 12BG034FF000). Our objective was to
determine whether the U.S. Postal Service has a comprehensive plan for the
development and use of IMb data. This audit was self-initiated. See Appendix A for
additional information about this audit.

The Postal Service began developing the Intelligent Mail Program in 2003. At that time
the program was assigned to the senior vice president (VP), Intelligent Mail and
Address Quality (IMAQ), who was responsible for the strategic vision and direction of
the program. The key aspect of the program is the IMb, which the Postal Service began
using in September 2006. The Postal Service developed the Seamless Acceptance and
Service Performance (SASP) 1 system database as the main repository for IMb data.
Following March 2011 organizational changes, SASP development was divided
between two organizations, one headed by the Mail Entry and Payment Technology VP
and one headed by the Product Information VP. See Appendix B for significant dates in
the development of the Intelligent Mail Program.

The Postal Service continues to develop uses for IMb and currently has five inter-
related IMb projects with a total planned investment of $314.4 million. See Appendix E
for a summary of the five projects. Customers print IMbs on mailpieces before mail is
entered into a Postal Service facility, or the Postal Service prints IMbs on mail during
one of the mail sorting processes. IMbs are read and data is collected multiple times as
mail passes through optical scanning on various mail processing automated sorting
equipment.

The IMb contains fields for information such as the delivery address, mailer ID, and a
unique identifier for each mailpiece in 31 digits of information in 65 vertical bars. The
IMb is similar to barcodes on merchandise at retail stores in that the barcode is scanned
and data is recorded. Until January 2014, customers can use either the Full-Service or
Basic IMb on the mail. Mailers must use Full-Service IMb effective January 2014 to
receive automation discounts.2 Full-Service requires mailers to apply them with a
number sequence that remains unique for at least 45 days and submit electronic mailing
documentation. Because of these requirements, full-service mailpieces are individually
identifiable and can be tracked by Postal Service scanners. Basic IMb users are exempt
from the requirements that make each piece unique. Basic IMb use is intended to
facilitate a transition to Full-Service IMb. The Postal Service and its customers can use
1
  An application that associates mailer manifest data (for example, electronic documentation) with operational data
(for example, scheduled appointments and barcode scans) and reference data (for example, Customer Registration
Identification (ID), Mailer ID, facility, delivery points) to support two key business functions: Full-Service Intelligent
Mail and service performance measurement.
2
  The Postal Service has mandated that mailers use Full-Service IMb by January 2014 to receive automation
discounts which will result in a significant increase in the use of IMb and the amount of data the Postal Service will be
required to capture and retain.
                                                                 1
Intelligent Mail Barcode Development and Use of Data                  DP-AR-13-010



IMb data to improve processing, delivery, and customer impact when combined with
marketing techniques, such as telemarketing follow-up.

The Postal Service performed 218.7 billion scans on an estimated 99.4 billion pieces of
IMb mail in fiscal year (FY) 2012. To accommodate an anticipated increase in the
number of mailpieces with IMb and a related increase in the amount of data collected,
when the full-service IMb requirement begins in January 2014, the Postal Service plans
to increase data storage and processing capability by five times the current capacity.
See Appendix C for a list of equipment and applications that capture IMb data and see
Appendix D for a list of applications that use IMb data.

Data governance practices are important for successful implementation of the Intelligent
Mail program. A key aspect of a strong data governance program is a comprehensive
plan that outlines a clear delineation of roles and responsibilities of corporate
stakeholders and a visible and active leadership structure.

Conclusion

The Postal Service successfully implemented and began using IMbs in
September 2006. However, it does not have a comprehensive plan for the continued
development and use of IMb data. Specifically, the Postal Service developed the IMb
database structure and made decisions regarding storage capacity, processing speed,
and timely availability of data without considering the needs of all IMb data users.
Current plans for use of the IMb data have grown beyond the original vision. Therefore,
data storage capabilities and system upgrades were needed to support stakeholders
requirements identified after initial development. Further, the Postal Service envisions
developing an information technology infrastructure to scan and track individual
mailpieces in real time as they travel through its processing system. However, without a
comprehensive plan utilizing data governance principles, the program applications in
development may have limited functionality and may not meet all users’ needs, such as
real-time mail tracking.

Intelligent Mail Barcode Database Development

The Postal Service initially developed the IMb database structure as a sampling-based
system to meet the service performance measurement (SPM) requirements of the 2006
Postal Accountability and Enhancement Act (PAEA). 3 Additional capabilities were
added as the Postal Service identified additional value and related application
requirements. Development of SASP, the main repository for IMb data, is divided
between the Mail Entry and Payment Technology group and the Product Information
group, since the 2011 reorganization. Each group reports to separate VPs and is
making development decisions that management asserts are cross-functionally vetted
to determine their impact. However, these change requests can affect the type and
amount of data storage and the timeliness of the data available to their separate user


3
    Public Law 109-435, December 20, 2006.

                                                       2
Intelligent Mail Barcode Development and Use of Data                                           DP-AR-13-010



bases. Database storage issues resulting from the lack of a comprehensive plan for IMb
development and use are discussed below.

Additionally, without a comprehensive plan, the Postal Service does not have a clear
direction for making database investments and no reliable estimate of total program
costs. The Postal Service planned to fund IMb and related application development for
$314.4 million, thus far, and program development continues without a defined strategic
plan employing principals of data governance components.4 As a result, program
applications in development may have limited functionality and may not meet all users’
needs such as real-time mail tracking.

Intelligent Mail Barcode Database Storage

When the Postal Service initially implemented Full-Service IMb in 2009, management
determined they needed to retain IMb data for 45 days. However, between March and
July 2010, IMb data retention requirements expanded from 45 to 120 days and resulted
in SASP data storage requirements increasing from about 8-10 Terabytes (TBs)5 to
about 40-45 TBs. Now management estimates the SASP database needs to grow to
about 100 TBs by January 2014 when Full-Service IMb is required for automation
discounts.

The Mail Entry and Payment Technology group submitted a                 Commercial
Mail Acceptance Transformation (CMAT)6 funding request in June 2012 and an
additional funding of             for SASP in March 2013. These two funding requests
                      should satisfy the 100 TB SASP storage requirement.

Although the proposed solution to upgrade current SASP data storage requirements will
address the immediate capacity concerns, the upgrades do not address Product
Visibility7 requirements. Instead of considering alternative data storage solutions and
addressing the needs of Product Visibility, they devised a plan to add storage space to
the current data storage configuration in time to meet the currently defined business
requirements and volumes.

Product Visibility requires real-time data for full functionality. However, due to the design
of SASP, users cannot retrieve real-time data. The further data is from real time, the
less valuable data is to decision making. The Postal Service acknowledged as far back

4
  Data governance programs require clear delineation of roles and responsibilities of corporate stakeholders, a visible
and active leadership structure, and a defined strategic plan. These and four other components defined in our U.S.
Postal Service Data Governance report (Report Number DP-AR-13-004(R), dated April 23, 2013).
5
  A measure of computer storage capacity — one TB is equal to 1,000 gigabytes.
6
  CMAT Delivering Results, Innovation, Value, and Efficiency (DRIVE) Description: Empower customers by providing
convenient solutions to enable preparation simplicity, payment flexibility, and ease of entry; leverage electronic
documentation and Intelligent Mail to automate acceptance and verification to promote efficiencies, convenience,
federal compliance and revenue assurance; provide near real-time electronic feedback to drive improved mail quality.
7
  Product Visibility requirements relate to the business changes contained in DRIVE Initiative Number 20. This
initiative will drive business change by exploiting technology to create better business processes, reduce operating
costs and enable technology-centric products and services. This includes having real-time delivery updates,
100 percent visibility for all mail, and enhanced analytics capabilities.

                                                           3
Intelligent Mail Barcode Development and Use of Data                       DP-AR-13-010



as the 2003 Intelligent Mail Corporate Plan that historical data provided little benefit to
customers with a need to know the status of their mail, or to managers making real-time
decisions about meeting service standards and reducing processing costs. Further, the
document stated Postal Service was operating at a disadvantage, because competitors
had access to real-time data. The 2003 vision document pledged to provide near real-
time information in a context that imparts immediate and actionable knowledge to
employees for mail movement, logistics, and staffing. In presentations to internal and
external customers, management continues to state that real-time data is the future of
IMb.

Because implementation of the CMAT and Product Visibility initiatives continues without
an overarching plan, the Postal Service does not know the cost of providing real-time
data to users, or whether recent investments in SASP will continue to benefit the IMb
Program.

Intelligent Mail Barcode Database Costs

The Postal Service has not determined the total cost of an IMb data storage and
processing infrastructure. To date, the Postal Service has planned to fund
$314.4 million for IMb infrastructure and related application requirements. It is difficult
for the Postal Service to consider future data storage needs when the program
requirements are not fully defined in a comprehensive plan. As a result, the Postal
Service has adjusted its initial investment in the current data storage structure by
funding:

   IMb-related projects for            in 2009, which included a data storage
    system to meet the demands of the Commercial Mail Acceptance project.

   Mail Entry and Payment Technology new program costs of                  as outlined
    in the June 2012 CMAT funding request that included hardware for additional
    storage.

   An additional              requested in March 2013 to upgrade the SASP storage
    and processing capability to meet new program requirements and the projected
    January 2014 full-service mandate demands.

Planned upgrades will not accommodate future applications because SASP does not
support real-time access to data and there is no comprehensive plan outlining future
requirements. Because there is no plan, the life cycle cost estimate that program
officials prepared as part of funding requests, did not capture all the costs associated
with the acquisition and implementation of the program. Additionally, program officials
did not have an accurate total cost estimate when the program was initially approved.
See Appendix E for a list of approved Decision Analysis Reports (DARs) related to the
Intelligent Mail Program.




                                                       4
Intelligent Mail Barcode Development and Use of Data                    DP-AR-13-010




Recommendation

We recommend the chief information officer and executive vice president:

 1. Develop a comprehensive Intelligent Mail barcode (IMb) data plan utilizing data
    governance principles for the collection, storage, and use of IMb data. The plan
    should include input from all business users, an assessment of all costs, and
    milestones for the life of the IMb program.

Management’s Comments

Management agreed that a comprehensive IMb management plan is needed, but
disagrees that the Postal Service has not had, and does not have, a comprehensive
IMb plan. Management stated the plan and vision for IMb reside with the chief
information officer (CIO) and identified project investments as evidence of a plan. See
Appendix F for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments unresponsive to the recommendation. Management asserts that there is a
comprehensive plan outlining future requirements, and stated the comprehensive plan
and vision resides with the CIO. However, the VPs and managers we met with during
the audit stated they were unaware of a documented plan and a plan was not provided
per our requests during the audit.

The Postal Service began developing the Intelligent Mail program in 2003 with a senior
VP serving as the focal point for vision and direction. The group created the original IMb
vision document in 2003 and last updated it in 2009. In March 2011, the Postal Service
eliminated the Intelligent Mail senior VP position. Now, two VPs (Product Information
and Mail Entry and Payment Technology) make development decisions for IMb-related
projects. Each VP has individual requirements and program interests not defined in an
overall strategic plan, which is contrary to the requirements of data governance.

Data governance is the process of ensuring that data are managed and fully utilized
throughout an organization. Data governance practices require a clear delineation of the
roles and responsibilities of corporate stakeholders, a visible and active leadership
structure, and a defined strategic plan. The strategic plan should include milestones and
metrics to measure success. We agree with management's assertion that uses for IMb
data have grown beyond the original vision, but the Postal Service must maintain a
comprehensive plan and update it as the program matures.

Management also stated that DARs for funding IMb projects serve as plans to build and
expand on the IMb data structure. A DAR is a vehicle used to request funding, not a
strategic plan. Handbook F-66, General Investment Policies and Procedures, also


                                                       5
Intelligent Mail Barcode Development and Use of Data                 DP-AR-13-010



explains that all phases of a project requiring implementation over a period of several
years must be presented as a unitary plan, not in pieces. The                funding
request in March 2013 for additional data storage and upgrades to SASP not included in
the                 requested in June 2012, is evidence of the absence of a
comprehensive plan. This is especially true in light of simultaneous work performed to
design alternative data storage and develop the Informed Visibility Program.

While management’s comments are not responsive to our recommendation, we do not
plan to pursue the issue through the formal audit resolution process.




                                                       6
Intelligent Mail Barcode Development and Use of Data                                           DP-AR-13-010




                                  Appendix A: Additional Information

Background

The Postal Service relies on information technology to support its mission of providing
prompt, reliable, and efficient mail service. In 2003, the Postal Service established the
IMAQ organization to identify requirements and direct efforts to develop the Intelligent
Mail Program. Since then, the Postal Service has been developing and expanding the
Intelligent Mail Program. See Appendix B for significant dates in this development.

IMb, the main component of the Intelligent Mail Program, uniquely identifies each
mailpiece. There are four intelligent barcodes the Postal Service uses to generate data:

   IMb are found mainly on letters and flat-sized mailpieces.
   Intelligent Mail tray barcode.
   Intelligent Mail container barcode to identify pallets and other containers.
   Intelligent Mail package barcode (IMpb).

The initial vision of Intelligent Mail was to provide better information and improve
efficiency by using standardized barcodes to continuously track mail as it passes
through the Postal Service’s mail processing system.

The Postal Service permitted mailers to begin using the IMb in 2006. Prior to that, the
Postal Service relied on the Postal Numeric Encoding Technique (POSTNET)8 barcode
for sorting mail. Customers print IMb on mailpieces before entering mail into a Postal
Service facility, or the Postal Service prints IMb on mail during one of the sorting
processes. The IMb allowed for automated routing of mail and allowed mailers to qualify
for automation prices. The Postal Service collects IMb data using optical scanning as
the mail moves through the sorting process. Managers and customers can use IMb data
to improve processing, delivery, and customer impact.

The Postal Service, beginning in 2009, provided mailers who chose to participate in the
Intelligent Mail Program with two options that offer different incentives:

   Basic Service – Requires mailers to apply an IMb and populate the relevant fields,
    but does not require the unique ID of pieces or electronic mailing documentation.
    Mailers who implemented Basic Service received a postage discount for using a
    barcode but not the other benefits associated with full service.

   Full Service - Requires mailers to populate and apply a barcode. Unlike Basic
    Service, the barcode must contain a sequence of numbers that remains unique for

8
  POSTNET is a Postal Service-developed barcode method to encode ZIP Code information on letter-size and flat-
size mail that automated machines can read and use to sort. A POSTNET barcode is based on the combination of tall
(full) bars and short (half) bars and can represent routing information up to an 11-digit delivery point code (62 bars).


                                                           7
Intelligent Mail Barcode Development and Use of Data                                       DP-AR-13-010



    45 days. Full-Service mailers must also use unique barcodes on tray and container
    labels and submit electronic mailing documentation. The Postal Service provided
    additional pricing discounts and other incentives such as free Address Change
    Service (ACS), fee waivers, and postage credits for mailers implementing full-
    service. The incentives help offset mailers’ investments in time and money. Since
    mailpieces are unique, Full-Service IMb provides the greatest opportunity for the
    Postal Service to collect data.

Prior to March 2011, the senior VP, IMAQ, provided the overall coordination,
management, direction, and vision of the Intelligent Mail Program. During the Postal
Service’s 2011 organizational redesign, it eliminated the IMAQ senior VP position. Now,
two VPs, Product Information and Mail Entry and Payment Technology, make
development decisions for five interrelated projects. Each VP has their individual
requirements and program interests.

For the first half of FY 2013, Basic Service and Full-Service IMb mail represented about
33 and 49 percent of total commercial mail volume, respectively. In April 2013, the
Postal Service mandated participation in Full-Service IMb by January 2014 for mailers
who wish to continue receiving automation discounts. The Postal Service is anticipating
savings by using Full-Service IMb for automated verification and acceptance of
commercial mail,9 assessing and improving operations, and SPM. SPM measures the
time it takes mail to move from origin to destination compared to the service standard.
The Postal Service currently pays contractors to collect data and calculate SPM scores.
SPM is also a requirement of the PAEA.

Data Governance

Data governance is the management process that ensures important data assets are
formally managed and fully utilized throughout an organization. Data governance
programs require a clear delineation of roles and responsibilities of corporate
stakeholders, a visible and active leadership structure, and a defined strategic plan.
Data governance committees manage access rights and determine data inventory
management policies that provide for data accuracy, minimize risk, and maximize
storage capacity. Poor data governance can lead to data quality issues and increased
costs due to the loss of end-user productivity resulting from poorly organized, low
quality, and inaccessible data.

On April 23, 2013, the OIG issued a report after assessing Postal Service data
governance.10 The report found that "the Postal Service could improve management of
critical data to assist managers and employees to achieve strategic and operational
goals." Further, "the majority of the issues involved unreliable or inaccurate data or were
caused by an absence of policies or the Postal Service not enforcing existing policies."


9
  A general term for the mail products used by business mailers requiring advanced preparation such as barcoding
and sortation.
10
   U.S. Postal Service Data Governance (Report Number DP-AR-13-004(R), dated April 23, 2013).

                                                        8
Intelligent Mail Barcode Development and Use of Data                                          DP-AR-13-010



Gathering and Accessing Intelligent Mail Barcode Data

The Postal Service gathers and stores detailed information on IMb, particularly
full-service mailings. Some data is provided by mailers, other data is gathered by
manual or passive optical scanning during acceptance, processing, and delivery
activities. Mailers using Full-Service IMb must generate and apply the appropriate IMb
and provide eDoc prior to mail acceptance through the PostalOne!11 application.

For small mailers, the Postal Service developed the free Intelligent Mail for Small
Business Mailers (IMsb)12 tool to encourage participation in the Intelligent Mail Program.
The IMsb tool allows mailers to create unique barcodes on mailpieces and electronic
postage statements (Postal Wizard) and submit them electronically for acceptance.

The Postal Service also gathers IMb data by scanning unique IMb and associating mail
with the time and place of the scanning event. Scanning events occur passively or
manually. Passive scanning occurs as automated mail sorters and other mail
processing equipment (MPE) read the IMb and use embedded routing information to
sort pieces to a destination. The computer controlling MPE collects and sends some
data to a local server at the end of a sort program run, but other data may be fed to the
server in real time.

Figure 1 shows each function in the life cycle of a mail product where data from
scanning could potentially be collected. Not all mail follows the process shown in the
figure from beginning to end. The potential number of scans depends on the amount of
work sharing performed by the customer before entry and where the mail is entered into
the system.




11
   An integrated electronic system that records mailing transactions, receives payments, and simplifies record
keeping and the retrieval of commercial mailing data.
12
   Announced in the Federal Register on April 20, 2012, this online tool lets small business users upload and validate
their address list and print the addresses along with the unique IMbs for their mailpieces. This tool is designed
specifically for small-volume mailers and simplifies the process of creating mailings with IMbs. The IMsb tool is
available for First-Class and Standard cards, letters or flat mailings consisting of 5,000 or fewer pieces, with an
annual maximum of 125,000 pieces. Pieces qualify for the Mixed Automated Area Distribution Center or Mixed Area
Distribution Center prices.

                                                          9
Intelligent Mail Barcode Development and Use of Data                                                      DP-AR-13-010




                                                     Figure 1. End-to-End Scanning Diagram




Source: Postal Service: Getting the Most Out of Full-Service IMb, July 24, 2012.

See Appendix C for a list of equipment and applications that provide IMb data to servers and Appendix D for a list of
applications drawing on IMb data.




                                                                                   10
Intelligent Mail Barcode Development and Use of Data                                               DP-AR-13-010



Implementation of Intelligent Mail

Preparing for and implementing Intelligent Mail and associated applications involves
considerable changes for both mailers and the Postal Service, including significant
changes to information systems and software used by both parties.

Mailers participating in the Full-Service IMb program must modify their information
systems in order to generate and submit complex mailing documentation electronically
to the Postal Service. As part of the ongoing process to increase mailer participation,
the Postal Service offered financial incentives, beyond typical work sharing or
automation discounts, to mailers who chose to adopt the program. Specifically, the
Postal Service offered:

    A discount, in addition to automation prices, of $.003 (First-Class) or $.001
     (Standard & Periodicals) for each mailpiece using Full-Service IMb.

    Free ACS and start-the-clock data to Full-Service mailers and reduced price ACS for
     Basic Service customers.

    Free IMb Tracing™ subscriptions.13

    Waiver of annual permit mailing fees if 90 percent of each mailing is full service.

Besides the IMb placed on letter and flat mail by commercial mailers, the Postal Service
generates and prints IMb on collection mail (generally sent by individuals rather than a
business) and non-automation commercial mail during mail processing operations.
Recently upgraded software and printers on MPE enable the application of IMb as mail
is sorted.

The Postal Service envisions developing an end-to-end information technology
infrastructure to scan and track individual mailpieces in real time as they travel through
its processing system. As Intelligent Mail capabilities increase, the Postal Service
expects to collect data from millions of mailpieces with IMb on a daily basis, which will
require the Postal Service to expand and improve its information technology collection
and provisioning systems. To date, the Postal Service plans to spend approximately
$314.4 million for IMb and related applications.

See Appendix E for a list of approved DARs related to the Intelligent Mail Program.

Objective, Scope, and Methodology

Our objective was to determine whether the Postal Service has a comprehensive plan
for developing and using IMb data. To accomplish our objective, we:

13
    IMb Tracing receives piece-level handling events (scans) for letters and flats that have an IMb and are linked to a
tracing service subscription. These piece-level handling events are made available to the external customer as data
file extracts.

                                                           11
Intelligent Mail Barcode Development and Use of Data                   DP-AR-13-010




   Reviewed existing Federal Register articles related to the Postal Service’s IMb
    Program.

   Reviewed roadmaps and DARs related to the IMb Program.

   Interviewed Postal Service management and users to determine whether:

    o The Postal Service has a vision and strategy for implementing the IMb Program.

    o The Postal Service has identified all requirements and costs associated with
      developing the IMb Program beyond the current implementation.

    o The IMb Program development agenda considers the plans and needs of all
      internal stakeholders, including: business mail entry and payment technology,
      operations, and SPM.

    o The IMb Program development agenda considers the expectations of external
      stakeholders.

   Interviewed mailers and representatives of mailing organization about their concerns
    regarding the IMb Program.

We conducted this performance audit from September 2012 through September 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on July 24, 2013, and included their
comments where appropriate.




                                                   12
Intelligent Mail Barcode Development and Use of Data                               DP-AR-13-010



Prior Audit Coverage

                                                           Final Report           Monetary Impact
        Report Title               Report Number               Date                 (in millions)
U. S. Postal Service Data         DP-AR-13-004(R)            4/23/2013                    None
Governance
Report Results: Although the Postal Service defined a structure for a data governance
program in 2003, full roles and responsibilities were not uniformly adopted across the
enterprise. Also, limitations in the Postal Service’s data governance program placed the Postal
Service at risk to potential vulnerabilities that could affect data quality, availability, and integrity
and result in inefficient operations, disruptions of service, and fraud. The OIG recommended
implementing a formal, enterprise-wide data governance program. Management concurred with
our finding and recommendation.

Evaluation of the External       FF-AR-12-006           9/18/2012                 $4.1
First-Class Measurement
System
Report Results: The current contract relies on costly manual reporting and recording of test
pieces. When negotiating the last External First-Class (EXFC) contract, management intended
to transition from the current, manual process to an automated process. However, the Postal
Service has not yet developed a plan to automate this process. The OIG recommended using
EXFC only to meet statutory requirements, developing a comprehensive plan to replace the
current EXFC activities with an automated solution and developing controls to eliminate
unauthorized special treatment of test pieces. Management disagreed with the finding related to
EXFC reporting requirements and cost-reduction alternatives, but provided an alternative action
that could reduce the sample size. Further, management agreed with the finding related to
EXFC vulnerabilities but neither agreed nor disagreed with the associated recommendation.
Finally, management agreed with the finding related to EXFC planning and technological
alternatives and the associated recommendation.




                                                   13
Intelligent Mail Barcode Development and Use of Data                         DP-AR-13-010




                                                          Final Report        Monetary Impact
        Report Title                Report Number             Date              (in millions)
Commercial Mail Entry              EN-AR-12-004                9/14/2012              None
and Acceptance Initiatives
Report Results: The Postal Service developed and revised its proposal for transforming
commercial mail acceptance several times throughout this fiscal year. In addition, PostalOne!,
the Postal Service’s primary system for recording commercial mail transactions and managing
customer accounts, has experienced multiple operational and availability issues. The mailing
industry also has concerns about the availability of PostalOne! and other issues related to
commercial mail initiatives. We recommended management closely monitor the financial and
operational risks related to proposed commercial mail entry and acceptance initiatives and
address availability issues related to PostalOne!. Further, we recommended identifying
additional incentives to increase mailer participation in the Full-Service IMb program and
develop a plan to address concerns mailers have with commercial mail transformation initiative
requirements. Lastly, we recommended developing a process that will allow Full-Service IMb
mailers the opportunity to challenge postage adjustments made to streamlined mailings.
Management concurred with our findings and recommendations.

Strategic Approaches to           MS-AR-11-007           9/30/2011                 None
Revenue Protection
Report Results: Preparation for fully automating the business mail entry process will depend
on broadened collaboration with processing officials and adoption of full-service IMb on
mailpieces and containers. Basic IMb and non-automated mail will continue to require costly
manual revenue protection procedures until additional automated technologies are developed.
We recommended management work with a broadened group of internal and external
stakeholders to prepare for streamlining the entry of business mail, accelerate the timeline for
streamlined acceptance and verification, and seek to leverage technology to provide revenue
protection for Basic Service Intelligent Mail and non-automated volumes. Management agreed
with our recommendation overall and provided planned actions and a planned completion date.




                                                   14
Intelligent Mail Barcode Development and Use of Data                         DP-AR-13-010




        Report Title               Report Number        Final Report      Monetary Impact
                                                            Date            (in millions)
Service Performance                CRR-AR-11-003           9/6/2011                 $19.2
Measurement Data –
Commercial Mail
Report Results: The process used to obtain service performance scores for commercial mail is
not effective. The Postal Service has experienced significant data quantity, accuracy, and
reliability issues resulting in about 88 percent of Full-Service IMb mail being excluded from
SPM. We recommended the Postal Service establish milestones for implementing recovery of
discounts provided to mailers when Full-Service mailings do not meet the specific requirements
for discounts received. Management agreed with our findings and recommendation.

Intelligent Mail: Realizing        DA-AR-11-010         8/30/2011                 None
Revenue Assurance
Benefits
Report Results: The Postal Service postponed implementing an automated revenue assurance
for the intelligent mail program to focus on implementing other aspects of the program. Our
analysis of Full-Service IMb scan rates indicates that some mailings that met business mail
acceptance requirements exhibited low scan rates when processed on MPE. We recommended
the Postal Service establish timeframes for implementing enhanced automated verifications as
described in the original DAR, develop a tolerance level for low scan rates to use for exception
reporting, and develop a process for identifying the cause(s) of these rates for customer follow-
up as warranted. Management partially agreed with the recommendations and planned to
complete a proof-of-concept by January 2013.

Effects of Compliance              MS-AR-11-006         8/24/2011                 None
Rules on Mailers
Report Results: The Postal Service has not always fully considered how changes to mail
compliance rules impact mailers. Management concurred with the findings and
recommendations and stated that, where practicable, it will include mailers costs in its cost-
benefit analysis of new initiatives. We recommended the Postal Service consider mailing
industry costs as part of cost-benefit analyses and further involve stakeholder groups in formal
dialogue during the strategic planning phase of new initiatives and enhance transparency and
accountability by documenting Postal Service collaborative efforts. In addition, we
recommended it train and monitor acceptance employees on changes to program requirements
and related compliance rules. Management agreed with our findings and recommendations.




                                                   15
Intelligent Mail Barcode Development and Use of Data                          DP-AR-13-010




     Report Title             Report Number             Final Report       Monetary Impact
                                                            Date             (in millions)
Full-Service                 DA-MA-11-001            11/23/2010                None
Intelligent Mail
Program Customer
Satisfaction
Report Results: Surveys of Full-Service IMb participants disclosed mixed results for program
usefulness. The primary reasons mail owners did not participate in the Full-Service IMb
Program were high start-up costs and limited program benefits. Mail service providers
expressed concerns with assistance at the business mail entry units and the PostalOne! Help
Desk. We recommended the Postal Service re-emphasize Full Service Intelligent Mail Program
benefits to business mailers and to consider offering program incentives to business mailers to
offset program start-up costs. Management generally agreed with the findings and
recommendations and stated that they have effective and ongoing efforts in place to address
the issues raised in the report.

Intelligent Mail               GAO-09-599             5/6/2009                  None
Benefits May Not Be
Achieved if Key
Risks Are Not
Addressed
Report Results: The Government Accountability Office (GAO) recommended the Postal Service
(1) develop a comprehensive Intelligent Mail strategy, (2) develop attributable cost and savings
information, and (3) develop a plan that addresses how the Postal Service will mitigate risks,
including the implications of the impact of lower-than-anticipated customer adoption of Intelligent
Mail. The Postal Service agreed to recommendations 1 and 3 and has begun implementing
them, but stated that it already has cost and savings information




                                                   16
Intelligent Mail Barcode Development and Use of Data                           DP-AR-13-010




   Appendix B: Significant Dates in Development of the Intelligent Mail Program

        Date                                                    Event
January 2003                   Established IMAQ to identify and shepherd efforts to develop
                               the Intelligent Mail Program.
May 2003                       The Intelligent Mail Working Group published the Intelligent
                               Mail Corporate Plan. The initial vision was to “place an
                               information-rich code on all mail, aggregates of mail, and
                               business forms, enabling end-to-end visibility into the
                               mailstream.”
September 2006                 Permitted mailers to begin using the IMb in place of the
                               POSTNET barcode for letters.
December 2006                  PAEA signed into law, requiring the Postal Service to report
                               on its service performance. SPM measures the time it takes
                               for mail to move from origin to destination compared to the
                               service standard.
January 2007                   Announced that the Intelligent Mail Program would be fully
                               operational for all commercial mailers by 2009.
May 2007                       Expanded use of the IMb by allowing mailers to use it on
                               automation-rate flat-size mailpieces.
July 2007                      Published new specifications for the IMb.
January 2008                   Published an advanced notice in the Federal Register of
                               proposed rulemaking to require IMb use by mailers who get
                               automation prices, starting January 2009.
April 2008                     Published a proposed rule in the Federal Register to revise
                               standards and specify that mailers would be eligible to use
                               Intelligent Mail and receive incentives for using full service
                               starting May 2009.
July 2008                      The Board of Governors approved funding to create an
                               infrastructure that will facilitate Intelligent Mail implementation.
August 2008                    Published final rule in the Federal Register announcing that it
                               will allow POSTNET barcodes until May 2011 and start
                               offering Intelligent Mail Basic Service and Full Service in
                               May 2009.
February 2009                  Gave notice of Intelligent Mail discounts on February 10,
                               2009, in its notice of market-dominant price adjustments
                               posted on the Postal Regulatory Commission’s website. The
                               effective date for the discounts was May 2009.




                                                   17
Intelligent Mail Barcode Development and Use of Data                                   DP-AR-13-010




       Date                                                      Event
May 2009                         Enabled full-service allowing customers to begin applying
                                    for certification.
                                 Planned to internally implement the first phase of Intelligent
                                    Mail and expected to have the systems in place to provide
                                    full-service functions, including ACS and eDoc.
November 2009                   Phased-in price incentives and other functions in
                                November 2009 and required mailers to use the new barcode
                                by May 2011 to qualify for lower postage rates.
March – July 2010               Enabled SPM, which expanded data retention requirements
                                from 45 to 120 days.
November 2010                   Issued Intelligent Mail Vision and amended the vision
                                statement to say “Enhance the value of mail by using
                                information and insight from the mail to deliver increased
                                customer value and drive operational efficiency.” The
                                document reported progress made toward accomplishing the
                                original three strategies and identified four new strategies for
                                moving forward. This high-level document did not contain a
                                roadmap to completion of the program, provide goals or a
                                system to measure completion of phases over the life of the
                                program, or address expected total costs.
January 2011                    Cancelled the May 2011 mandate for mailers to use the IMb
                                or lose the automation-based postage discount; due to
                                negative feedback and the need to make adjustments, the
                                deadline for implementation of IMb was pushed back.
March 2011                      As part of the organizational redesign, eliminated the position
                                of senior VP, IMAQ.
January 2012                     Enhanced Mail Visibility to mailers adopting Full Service
                                     by making tray and container scan data available.
                                 The IMpb is required for PC postage customers.
                                                              14
                                 Discounted CONFIRM service and replaced it with free
                                     IMb Tracing, providing piece-level scan data for Basic and
                                     Full-Service IMb mailings.
March 2012                       Proposed the rule to include the basis for discontinuing use of
                                 POSTNET barcodes and allowing only IMb for automation
                                 price eligibility by January 2013.
October 2012                    Published a proposed rule in the Federal Register requiring
                                Full Service to qualify for automation prices as of
                                January 2014.

14
  CONFIRM service used PLANET barcodes in conjunction with POSTNET barcodes to create unique mailpieces.
CONFIRM provides scan data for mailer to use for tracking and estimating delivery of both outbound mail and
incoming hard-copy reply mail.

                                                     18
Intelligent Mail Barcode Development and Use of Data                                        DP-AR-13-010



November 2012                      Announced an extension to January 28, 2013, of the deadline
                                   for using IMpb. The previous deadline was January 7, 2013.
January 2013                         Sunset the use of POSTNET and Postal Alpha Numeric
                                      Encoding Technique (PLANET)15 barcodes.
                                     Discontinued CONFIRM when the last subscription
                                      expired.
                                     Began upgrading MPE hardware and software to enable
                                      application of IMb on letters and flat mail by MPE during
                                      the mail processing operation.
April 2013                           In a Federal Register article, the Postal Service mandated
                                      Full Service to qualify for automation prices as of
                                      January 2014.
Sources: GAO Audit Report Federal Register Notices, U.S. Postal Service, and MyPrint Resource.com (Report
Number GAO 09-599), May 6, 2009.




15
     A height-modulated two-state barcode used with the POSTNET barcode to uniquely identify mailpieces.

                                                         19
Intelligent Mail Barcode Development and Use of Data                                   DP-AR-13-010



             Appendix C: Systems Generating Intelligent Mail Barcode Data

          System Name                                            VP Organization
Flats ID Code Sort Systems               Engineering Systems
Description: A system upgrade to the Automated Flats Sorting Machine 100 that provides the capability
to tag flat-size mail with an ID at each in-feed station. This functionality reduces the keying requirement
on secondary handling of flats while identifying and tracking each tagged piece.


ID Code Sort                             Engineering Systems
Description: A database server that is part of the ID Code Sorting system and uses ID tag information to
sort letter mail with unreadable or insufficient POSTNET barcodes (mailpieces with recognized barcodes
need no further definition). ID tag information enhances sort performance for letters with unreadable or
insufficient barcodes and keeps them in the automated mailstream.


Integrated Data System (IDS)             Engineering Systems
Description: The central source for the collection and distribution of mail processing and mailpiece data
from all automated MPE and material handling systems at mail processing facilities. IDS processes the
mailpiece barcode data used to identify and track mailpieces within the mail processing environment.


Intelligent Mail Device (IMD)            Mail Entry and Payment Technology
Description: A hand-held scanner that reads and collects barcode data from products such as Express
Mail and Delivery Confirmation services. The IMD also supports operational programs like Surface
Visibility and the Electronic Verification System (eVS) and is a key tool for delivery and vehicle
management.


Intelligent Mail Internal Mailing        Product Information
(IMIM)
Description: A web application tool that makes it easier and more convenient for Postal Service
employees to create and use IMbs on small mailings and individual pieces.


Intelligent Mail for Small               Mail Entry and Payment Technology
Business Mailers (IMsb)
Description: This online tool lets small business users upload and validate their address list, and print
the addresses along with the unique IMb for their mailpieces. The IMsb tool also allows the mailers to
create electronic postage statements (Postal Wizard) and submit them electronically to the acceptance
unit. This tool is designed specifically for small-volume mailers and simplifies the process of creating Full-
Service IMb mailings for First-Class and Standard Mail. There are maximums of 5,000 pieces per mailing,
and 125,000 pieces per permit, per year.




                                                      20
  Intelligent Mail Barcode Development and Use of Data                                    DP-AR-13-010




             System Name                                               VP Organization
  Intelligent Mail Visibility Service       Product Information
  (IM-VIS)
  Description: An infrastructure project that replaced 80 district servers distributed in the field. IM-VIS pulls
  mailpiece information from 297 IDS servers located in the plants. Each IDS receives data from 100 to 300
  pieces of MPE. IM-VIS provides mailpiece information to the information based indicia, Confirm, and
  Product Tracking System (PTS) database servers. IM-VIS receives the standardized data in .xml format
  from the IDS in near real time. IM-VIS utilizes the interoperability standard data stream from the MPE to
  the IDS, thus enabling consuming applications to receive near real-time information as mailpieces are
  scanned by sortation equipment.


  Local Intelligent Mail                    Engineering Systems
  Description: A workstation used to transmit Delivery Confirmation data from the IMD to PTS (via the
  National Intelligent Mail server) that provides scan reports at large offices.


  Mail.dat                                  Not Applicable (N/A)
  Description: A data formatting standard administered by the International Digital Enterprise Alliance that
  is used by mailers to send and receive information about mailings. It is one of the electronic methods for a
  mailer to submit mailing documentation through the PostalOne! system for acceptance and postage
  payment.


  Mail Processing Equipment                 N/A
  (MPE)
  Description: Machinery and related apparatus used to perform mail distribution and other functions. IMb
  data is sent from the machines to systems that support tracking programs.


  National Intelligent Mail                 Engineering Systems
  Description: A server that receives all scan data from IMDs and makes it available to backend systems.


  PostalOne!                                Mail Entry and Payment Technology
  Description: An integrated electronic system that records mailing transactions, receives payments, and
  simplifies record keeping and the retrieval of mailing data. It is the foundation of seamless acceptance
  and the submission of eDoc for Intelligent Mail.
Source: List provided by Postal Service Mailing Information Systems.




                                                          21
Intelligent Mail Barcode Development and Use of Data                                      DP-AR-13-010



               Appendix D: Systems Utilizing Intelligent Mail Barcode Data

          System Name                                             VP Organization
Application System Reporting             Information Technology
(ASR)/MicroStrategy
Description: MicroStrategy services provide core support for the MicroStrategy reporting and analysis
tools used by Postal Service personnel and external customers to access the Electronic Data Warehouse
(EDW) and other data sources. The MicroStrategy Service supports the EDW Service by providing the
primary user interface for EDW reporting/analysis. This same user interface infrastructure is used to
support reporting/analysis to several non-EDW sources – ASR projects.

Address Change Service (ACS)             Address Management
Description: An automated address correction process that provides to participating mailers a data file
containing change-of-address and undeliverable-as-addressed information.


Business Intelligence Data Store         Mail Entry and Payment Technology
(BIDS)
Description: An oracle database used to support Micro Strategy ASR reporting for the Full-Service eDoc
reporting, PostalOne! Business Mail Acceptance reporting and SASP SPM Reporting projects.


IMb Tracing                              Mail Entry and Payment Technology
Description: IMb Tracing is a service that provides real-time tracking information for automation-
compatible letters and flats, giving advance notice for both incoming and outgoing mail. The system
receives piece-level handling events for letters and flats that have an IMb with a tracing service. These
piece-level handling events are made available to the external customer as data file extracts. The
retention time of this information is only 7 days. The system is not designed for internal visibility of letters
and flats because IMb Tracing does not utilize a central repository and only receives handling events for
mailpieces where the customer has requested the IMb Tracing service.


Intelligent Mail Accuracy and            Product Information
Performance System (iMAPS)
Description: iMAPS is a hybrid SPM system that combines data. Specifically, it uses the commercial mail
“start-the-clock to the final processing time” along with externally collected data on the delivery date to
compute end-to-end service scores. It provides metrics to the PRC detailing the efficiency of mail delivery
throughout the country


Intelligent Mail Data Acquisition        Engineering Systems
System (IMDAS)
Description: A system that supports standardized hardware and a software platform for mobile data
collection and data transfer through scanning technology for postal products and services including
Intelligent Mail.




                                                       22
Intelligent Mail Barcode Development and Use of Data                                     DP-AR-13-010




         System Name                                              VP Organization
Intelligent Mail Enterprise (IME)      Product Information
Description: This system is comprised of multiple reports that provide users the ability to review delivery
performance metrics, report delivery performance problems, and enhance delivery performance.


Mail Evaluation Readability            Mail Entry & Payment Technology
Lookup INstrument (MERLIN)
Description: An automated system used in business mail entry units to evaluate letter-size and flat-size
mailings submitted by mailers for acceptance. The software that runs the machine validates postage
eligibility by checking the randomly selected mail samples as they are processed on the machine.
MERLIN checks presort levels and piece counts, address accuracy, barcode readability and accuracy,
tray label accuracy, and other requirements and generates diagnostic reports.


Mail History Tracking System           Network Operations
(MHTS)
Description: Provides a comprehensive service history of uniquely identifiable mailpieces. Through the
analysis of summarized historical data, the MHTS supports the detection of service issues and their
potential causes. In addition, the MHTS facilitates the extrapolation, modeling, and validation of the
national network of Postal Service mail flows. Finally, MHTS provides in-plant support, operations and
maintenance personnel with tools to validate machine and operator performance and mail flows.


PostalOne!                             Mail Entry & Payment Technology
Description: An integrated electronic system that records mailing transactions, receives payments, and
simplifies record keeping and the retrieval of mailing data. It is the foundation of seamless acceptance
and the submission of eDoc for Intelligent Mail.


Seamless Acceptance &                  Mail Entry and Payment Technology
Service Performance (SASP)
Description: An application that associates mailer manifest data (e.g., eDoc) with operational data (for
example, scheduled appointments and barcode scans) and reference data (for example, Customer
Registration ID, Mailer ID, facility, delivery points) to support two key business functions: (a) Full-Service
Intelligent Mail and (b) SPM. The system infrastructure includes hardware and software that can capture
and store large volumes of mailing data and automate business mail acceptance activities as part of its
integration with PostalOne! It determines start-the-clock, service standards, stop-the-clock, and service
variance, and it provides performance data for internal operations and for external PRC reporting.


Transactional Records                  Product Information
Processing (TRP)
Description: A High Performance/Supercomputing solution which will serve as a next generation
revenue protection system. TRP will provide key cross payment (Permit, Business Reply, and so forth)
control for ID and reporting on highly probable revenue loss schemes, actual losses, short payment, IBI
duplication, unregistered permits, and inactive permit accounts. TRP incorporates a web service that
gives the Postal Inspection Service the ability to review the Revenue Deficiency reports.




                                                      23
  Intelligent Mail Barcode Development and Use of Data                                   DP-AR-13-010




            System Name                                                VP Organization
  Web End-of-Run (WebEOR)                  Network Operations
  Description: A software application that allows end users to retrieve, view, and store various EOR
  statistics from automated MPE, on a user-defined time interval from an on-site server, and then imports it
  into an Oracle database. WebEOR generates a set of standard reports with essential data for operating
  decisions. It is used primarily in mail processing facilities.
Source: List provided by Postal Service Mailing Information Systems.




                                                          24
Intelligent Mail Barcode Development and Use of Data                                         DP-AR-13-010



           Appendix E: Intelligent Mail Program and Associated Applications

                 Table 1. Project Monetary Investment Details (in millions)

                                                  Total                    Total
                               Total          Deployment/                Operating
                              Capital        Implementation              Variance
        DAR                   Cost16            Expense                   Cost17              Total Investment
Infrastructure to
Support Intelligent
Mail Services
(Modification to
original DAR
Titled: Intelligent
Mail Barcodes,
Service
Performance &
Seamless
Acceptance)
Intelligent Mail
Barcode Printing
Upgrade
Mail Entry &
Payment
Technology:
Commercial Mail
Acceptance
Transformation
Continuous
Improvements to
Service
Performance
Measurement
SASP
Infrastructure
Upgrade
Total                                                                                               $314.4




16
   The investment of funds for assets that have an expected service life of more than 1 year, and which cost more
than a specified amount.
17
   Any change from the baseline level in benefits or costs for expenses such as rent, utilities, labor, training,
transportation, and maintenance.
18
   The DAR recommended              in deployment/implementation expenses.

                                                         25
Intelligent Mail Barcode Development and Use of Data                                DP-AR-13-010




                                 Table 2. IMb Project Summary

            DAR                  Date                                Summary
Infrastructure to Support      6/5/2009     To purchase necessary hardware and software and to
Intelligent Mail Services                   develop and implement the infrastructure to support the IMb
(Modification to original                   initiative. The solution proposed in the DAR consisted of
DAR Titled: Intelligent Mail                computer server systems, data storage, hand-held barcode
Barcodes, Service                           scanners, barcode evaluation scanners, and web-based
Performance & Seamless                      software capabilities designed to facilitate the IMb
Acceptance)                                 implementation.
Intelligent Mail Barcode       3/22/2012    To purchase and deploy software, firmware, and hardware
(IMb) Printing Upgrade                      upgrades to letter automation equipment that support
                                            POSTNET barcode retirement and full-service IMb
                                            automation requirements. Installations are not scheduled for
                                            completion until January 2013. This infrastructure support
                                            program is not expected to produce an economic return, but
                                            will enable the Postal Service to meet the requirements of
                                            the proposed rule for discontinuing the use of POSTNET
                                            barcodes and allowing only IMb for automation price
                                            eligibility purposes.
Mail Entry & Payment           6/4/2012     The DAR details the innovative and transformative initiatives
Technology: Commercial                      by the Mail Entry and Payment Technology department
Mail Acceptance                             through DRIVE Initiative Number 17, CMAT. The goal is to
Transformation                              leverage the use of IMb and Full-Service to transform
                                            Commercial Mail Entry functions by streamlining and
                                            automating mail preparation, verification and entry, and
                                            payment and account management.

                                            Specifically, the programs that are direct dependencies
                                            and/or interdependencies on the DAR include: Business Mail
                                            Entry Unit Channel; FAST; eVS; PostalOne!; SASP; and
                                            Postage Meter Administration and Control.




                                                   26
Intelligent Mail Barcode Development and Use of Data                                DP-AR-13-010




           DAR                   Date                                Summary
Continuous Improvements       8/22/2012     This DAR addresses SPM related to internal Postal Service
to Service Performance                      systems and utilizes data available from IMb for customer
Measurement                                 service and operational improvements. These enhancements
                                            are designed to: 1) position the Postal Service to in-source
                                            the service performance function; 2) improve service
                                            performance visibility and measurement; 3) improve
                                            operational efficiency and on time performance; and increase
                                            the number of mailpieces in measurement.

                                            Specifically, the programs that are direct dependencies
                                            and/or interdependencies on the DAR include: FAST;
                                            PostalOne!; SASP; Surface Visibility; IM-VIS; IMDAS;
                                            WebEOR; iMAPS; and BIDS.
SASP Infrastructure           3/15/2013     This DAR is for the infrastructure upgrade of the SASP
Upgrade                                     system required to meet the current Postal Service needs.
                                            The DAR supports data volume increases from the national
                                            roll-out of the CMAT DRIVE Initiative Number 17, and the
                                            Full-Service Intelligent Mail mandate effective January 2014.




                                                   27
Intelligent Mail Barcode Development and Use of Data           DP-AR-13-010



                           Appendix F: Management's Comments




                                                   28
Intelligent Mail Barcode Development and Use of Data    DP-AR-13-010




                                                   29
